No.

IN THE UNITED STATES SUPREME COURT
BENJAMIN MACIAS,
Petitioner,

v.

UNITED STATES OF AMERICA,
Respondent.

CERTIFICATE OF SERVICE
I, Walter K. Pyle, a member of the Bar of this Court, certify that on November
10, 2013, I served a copy of the Motion for Leave to Proceed in Forma Pauperis and
the Petition for Writ of Certiorari in this case on each party by placing it in an
envelope and depositing it in a United States mailbox, first-class postage prepaid,
addressed as follows:
PAUL A. HEMESATH
Assistant U.S. Attorney
Eastern District of California
501 I Street, Suite 10-100
Sacramento, California 95814
Telephone: (916) 554-2932
paul.hemesath@usdoj.gov

Solicitor General of the United States
Room 5616, Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D. C. 20530-0001
Telephone: (202) 514-2217/18
SupremeCtBriefs@usdoj.gov

and by sending an electronic copy to the email addresses above. The recipients
represent the United States of America.
I further certify that all parties required to be served have been served.
Berkeley, California
November 10, 2020

/s/ Walter K. Pyle
Walter K. Pyle
Attorney for Petitioner
2039 Shattuck Avenue, Suite 202
Berkeley, CA 94704-1116
(510) 849-4424

